IN THE COURT OF CRIMINAL APPEALS OF
FILED
THE STATE OF OKLAHOMA

IN COURT OF CRIMINAL APPEALS
STATE OF OKLAHOMA

JOE JOHNSON, JR.,
Petitioner,

f

)

AUG 2 5 2021

)

JOHN D. HADDEN
CLERK

)
)

v.

)

Case No. PC-2018-343

)

STATE OF OKLAHOMA,

)
)

Respondent.

)
)

ORDER AFFIRMING DENIAL OF PETITIONER’S ELEVENTH AND
SUBSEQUENT APPLICATION FOR POST-CONVICTION RELIEF;
HIS MOTION TO VACATE FOR LACK OF SUBJECT MATTER
JURISDICTION; AND HIS MOTION TO DISMISS CRF-1977-65
UNDER THE MAJOR CRIMES ACT
Petitioner, Joe Johnson, Jr., appeals to this Court from an order
of the District Court of Seminole County, Case No. CRF-1977-65,
denying Petitioner’s eleventh application for post-conviction relief.
Petitioner was convicted by a jury in 1977 of First Degree Murder and
was sentenced in accordance with the jury’s verdict to life
imprisonment.1 Petitioner’s judgment and sentence was affirmed on
direct appeal by this Court in a published decision handed down on
June 29, 1979.

Johnson u. State, 1979 OK CR 65, 597 P.2d 340.

The Honorable Rudolph Hargrave, District Judge, presided at Petitioner’s trial.

Appe^‘0lX,A,,

PC-2018-343, Joe Johnson, Jr. u. State of Oklahoma
Petitioner thereafter filed numerous post-conviction proceedings that
were denied by the District Court and affirmed if appealed to this
Court.

E.g., Johnson v. State, No. PC-2017-645 (Okl. Cr. Sept. 8,

2017) (unpublished); Johnson v. State, No. PC-2017-362 (Okl. Cr.
Apr. 27, 2017) (unpublished); Johnson v. State, No. PC-2013-1151
(Okl. Cr. Apr. 23, 2014) (unpublished); Johnson v. State, No. PC2006-267 (Okl. Cr. Jun. 8, 2006) (unpublished); Johnson v. State, No.
PC-2002-1322 (Okl. Cr. Dec. 12, 2002) (unpublished); Johnson v.
State, No. PC-1999-1163 (Okl. Cr. Nov. 1, 1999) (unpublished).
Petitioner’s current application was filed with the District Court
on September 13, 2017 and represents his eleventh application for
post-conviction relief.

In his current application, Petitioner claims

that the State of Oklahoma lacked jurisdiction to try him because he
is an enrolled citizen of the Seminole Nation and the crime occurred
within the boundaries of the Seminole Nation Reservation. Petitioner
also filed with the District Court a supporting motion to vacate for
lack of subject matter jurisdiction along with a motion to dismiss
Case No. CRF-1977-65 under the Major Crimes Act.

The District

Court thereafter denied post-conviction relief in a March 29, 2018,
order without conducting an evidentiary hearing.
2

PC-2018-343, Joe Johnson, Jr. v. State of Oklahoma

Petitioner appealed from the denial of his application for post­
conviction relief and we affirmed. Johnson v. State, No. PC-2018-343
(Okl. Cr. Jul. 24, 2018) (unpublished). Petitioner sought review of
our decision by the United States Supreme Court and that Court
vacated our post-conviction order and remanded the case for further
consideration in light of McGirt v. Oklahoma. 140 S. Ct. 2452 (2020).
See Johnson v. Oklahoma, 141 S. Ct. 192 (Jul. 9, 2020) (Mem). We
thereafter remanded the case to the District Court for an evidentiary
hearing to address two separate questions: (1) Petitioner’s Indian
status; and (2) whether the crime occurred in Indian country.
We

instructed the District Court to determine whether

Petitioner had some Indian blood and was recognized as an Indian
by a tribe or the federal government. The District Court was further
ordered to determine whether the crimes in this case occurred in
Indian Country.

In so doing, the District Court was directed to

consider any evidence the parties provided, including but not limited
to treaties, statutes, maps, and/or testimony.
We also directed the District Court that in the event the parties
agreed as to what the evidence would show with regard to the
questions presented, the parties may enter into a written stipulation
3

PC-2018-343, Joe Johnson, Jr. v. State of Oklahoma

setting forth those facts upon which they agree and which answer
the questions presented and provide the stipulation to the District
Court. Finally, the District Court was ordered to file written findings
of fact and conclusions of law with this Court.
A hearing was held in this case on January 19, 2021, before the
Honorable Timothy L.

Olsen, District Judge,

Petitioner was

represented by court-appointed counsel, M. Bradley Carter, at the
hearing. The State was represented by counsel from the Oklahoma
Attorney General’s Office along with Paul B. Smith, Seminole County
District Attorney. Counsel for the Seminole Nation also appeared on
behalf of the Tribe.

At the hearing, the Court heard arguments,

accepted stipulations and received testimony and exhibits. An order
containing the District Court’s findings of fact and conclusions of law
from that hearing was timely filed with this Court along with a
transcript of the hearing.
The record shows Petitioner is an enrolled member of the
Seminole Tribe with a blood quantum of 3/8 Seminole blood. The
record further shows, however, that Petitioner’s enrollment date in
the Seminole Tribe was on February 23, 2011, which is nearly thirty

4

PC-2018-343, Joe Johnson, Jr. v. State of Oklahoma

years after the murder in this case.2 Petitioner nonetheless testified
that he was born at the Talihina Indian Hospital and grew up in an
established

Native

American

community

outside

of Wewoka.

According to his testimony, Petitioner attended stomp dances and
pow wows at the tribal grounds and throughout his life visited
different places within the Native American community including
church and hospitals.

While growing up, Petitioner associated

primarily with Native Americans at his church and while hunting and
fishing.

Petitioner admitted on cross-examination that he never

asserted his Indian heritage to support a jurisdictional challenge
prior to filing his eleventh application for post-conviction relief.
The parties stipulated that the murder in this case occurred
within the historic boundaries of the Seminole Reservation.

The

parties also agreed to the incorporation of evidence and argument
submitted to the District Court in previous cases concerning the
creation and ongoing existence of the Seminole Reservation.
In its written findings of fact and conclusions of law, the District
Court found that Petitioner has some degree of Indian blood and is

2 According to the direct appeal opinion, the murder in this case occurred on or
about March 1, 1977. Johnson, 1979 OK CR 65, f 2, 597 P.2d at 341.
5

PC-2018-343, Joe Johnson, Jr. v. State of Oklahoma

recognized by the federal government or tribe as Indian. However,
the District Court ruled Petitioner did not meet the definition for legal
status as an Indian at the time of the murder in 1977. The District
Court concluded that Petitioner “offered no proof that he met the legal
definition of ‘Indian’ at the time the crime occurred.” The District
Court further concluded the Seminole Reservation was never
disestablished and that the murder in this case occurred within
Indian country for purposes of federal criminal jurisdiction.3
We review the District Court’s determination of a post­
conviction relief application for abuse of discretion. Stevens v. State,
2018 OK CR 11, If 12, 422 P.3d 741, 745.

In the present case,

Petitioner fails to establish entitlement to any relief in this
subsequent post-conviction proceeding. We recently held in State ex
rel. Matloff v. Wallace, 2021 OK CR 21

P.3d__, “that McGirt and

our post-McGirt reservation rulings shall not apply retroactively to
void a final state convictionf.]” Matloff, 2021 OK CR 21, ^ 40. We
concluded McGirt “announced a new rule of criminal procedure that

3 We recently held that Congress has not disestablished the Seminole Reservation
and that the Seminole Nation is “Indian Country” for purposes of criminal law
jurisdiction. See Grayson v. State, 2021 OK CR 8, KK 10-11, 485 P.3d 250, 254.
Nothing in today’s ruling, or in our recent decision in State ex rel. Matloff v.
Wallace, 2021 OK CR 21, _P.3d ., discussed infra, impacts that holding.
6

PC-2018-343, Joe Johnson, Jr. v. State of Oklahoma

we decline to apply retroactively in a state post-conviction proceeding
to void a final conviction.” Matloff 2021 OK CR 21, K 6. We further
held that “[a]ny statements, holdings, or suggestions to the contrary
in our previous cases are hereby overruled.” Id. at T) 15.
Applying Matloff to the present case, we find no abuse of
discretion from the District Court’s denial of post-conviction relief.
Petitioner’s conviction became final in 1979 upon the expiration of
the time in which he could seek certiorari review with the Supreme
Court from our denial of his direct appeal. The current jurisdictional
challenge

was

filed

in

Petitioner’s

eleventh

post-conviction

application and represents a collateral challenge to his judgment and
sentence.

McGirt does not apply retroactively in this subsequent

post-conviction relief proceeding over forty years after Petitioner’s
conviction became final.
Therefore, the order of the District Court of Seminole County,
Case

No.

CRF-1977-65

denying

Petitioner’s

eleventh

and

subsequent application for post-conviction relief; denying his motion
to vacate for lack of subject matter jurisdiction; and denying his
motion to dismiss CRF-1977-65 under the Major Crimes Act should
be, and is hereby, AFFIRMED. All of Petitioner’s other motions filed
7

PC-2018-343, Joe Johnson, Jr. v. State of Oklahoma

in this matter are DENIED. The State’s motion to stay and abate
proceedings in this case is now MOOT. Pursuant to Rule 3.15, Rules
of the Oklahoma Court of Criminal Appeals, Title 22, Ch.18, App.
(2021), the MANDATE is ORDERED issued forthwith upon the filing
of this decision with the Clerk of this Court.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF THIS
COURT this

-5"^ day of

/

2021.

SCOTT ROWLAND, Presiding Judge

&&U***l. /cJLia*4>t
ROBERT L. HUDSON, Vice Presiding Judge

DAVID BAL

ATTEST:

Clerk

8

d

IN THE DISTRICT COURT IN AND FOR SEMINOLE COUNT%,
STATE OF OKLAHOMA
JOE JOHNSON, JR„
Defendant/Petitioner,
v.

)

)
)
)
)
)
)
)

Seminole County District
Court Case No. S-CRF-77-65
Court of Criminal Appeals
Case No. PC-2018-343

THE STATE OF OKLAHOMA,
Plaintiff/Respondent,)

DISTRICT COURT'S FINDINGS OF FACT
AND CONCLUSIONS OF LAW ON REMAND FROM
THE COURT OF CRIMINAL APPEALS OF THE STATE OF OKLAHOMA
STATEMENT OF THE CASE
Defendant/Petitioner Joe Johnson, Jr. was convicted by a jury of First Degree
Murder in 1977 in the District Court of Seminole County. .On November 23, 2020, the
Court of Criminal Appeals of the State of Oklahoma ordered this Court to hold an
evidentiary hearing on Defendant/Appellant’s claim in his Application for Post-conviction
Relief filed on September 13, 2017, alleging that the State of Oklahoma lacked jurisdiction
to try him because he is a citizen of the Seminole Nation and the crime occurred within
!

i

the boundaries of the Seminole Nation Reservation.
This Court noticed the parties for hearing and invited the Seminole Nation of
Oklahoma to file a brief regarding the important jurisdictional issue at stake.

The

Seminole Nation filed an amicus curiae brief on January 13, 2021. This Court appointed
Brad Carter to represent the Defendant/Petitioner for the Hearing on Remand.
On January 19,2021, this Court conducted an evidentiary hearing with the parties,
counsel, and the Seminole Nation present. The State of Oklahoma appeared by and
1

Appendix “8"
■

j

through District Attorney Paul Smith and Assistant Attorneys General Theodore Peeper
and Joshua Fanelli. The Defendant/Appellant appeared via video with counsei, Brad
Carter present in court. The Seminole Nation appeared by and through counsel, Brett
Stavin, via video.

The Court heard arguments, accepted stipulations, and received

exhibits from the parties.
in the "Order Remanding for Evidentiary Hearing" (Order), the Court of Criminal
Appeals directed this Court to address only the following two questions:
First, AppeUam’s trvdten status. The District Court must determine whether {\)
Appellant has some Indian blood, and (2) is recognized as Indian by a tribe or by the
federal government.
Second, whether the crime occurred in Indian Country. The District Court is directed
to follow the analysis set out in McGirf, determining (1) whether Congress established
a reservation for the Seminole Nation, and (2) if so, whether Congress specifically
erased those boundaries and disestablished the reservation, in making this
determination the District Court should consider any evidence the parties provide
including, but not limited to, treaties, statutes, maps and/or testimony.
FINDINGS OF FACT AND CONCLUSIONS OF LAW
Based upon the stipulations and exhibits, as well as argument of the parties, which
included oral argument from a representative of the Seminole Nation, and review of the
pleadings and briefs of counsel, this Court makes the following findings of fact and
conclusions of law regarding the two issues remanded for resolution.
I. Does the Defendant/Appeliant meet the definition of an “Indian” for purposes
of criminal jurisdiction?
The first question this Court must resolve is Petitioner's Indian status. The Court
of Criminal Appeals in its remand order set out the test for whether Defendant/Petitioner
is Indian for purposes of criminal jurisdiction. U.S. v. D/az, 679 F.3d 1183, 1187 (10th
2

Cir. 2012) and U.S. v. Prentiss, 273 !F.3d 1277,1279 (10th Cir. 2001). This Court must
be satisfied that Defendant/Petitioner has "some Indian blood" and is “recognized as an
Indian by a tribe or by the federal government." Diaz, 679 F.3d at 1187.
Defendant/Petitioner Joe Johnson, Jr., DOB 4/14/1956 established through his
exhibits, testimony and stipulations of the parties that he is recognized by the federal
government as an Indian, Seminole Tribe, with a blood quantum of 3/8 by issuance of a
CDIB Card on September 22, 2005. Further, he is an enrolled member of the Seminole
Nation, Roll Number 200-1525, with a date of enrollment of 2/23/2011.
Based upon the stipulation, testimony, and statements of counsel, the test for
Indian status is satisfied. Defendant/Appellant has some degree of Indian blood and Is
recognized as an Indian by the Seminole Nation of Oklahoma, a federally recognized
tribe. However, Petitioner did not meet the definition for legal status as an “Indian” at the
time the crime was committed. He offered no proof that he met the legal definition of
"Indian” at the time the crime occurred.
II. Did the crime occur in “Indian Country” as defined by the “McGill” decision?
The second question this Court must answer is whether under the analysis set out
in McGirt, the crime at issue occurred in “Indian country.” In order to answer this question,
the court must determine whether Congress established a reservation for the Seminole
Nation, and if so, whether Congress specifically erased those boundaries and
disestablished the reservation. The State takes no position as to the facts underlying the
existence, now or historically, of the alleged Seminole Nation Reservation. The District
Court of Seminole County has previously determined that the Seminole Nation is “Indian
Country” as defined by McGirt, as set forth in the following analysis. The District Court’s
3

prior decision is currently on appeal. This Court incorporates the Exhibits admitted in CF2015-370, F-2018-1229 (specifically, Defendant/Appellant’s Exhibits, Relevant Treaties
and Congressional Acts attached hereto as Addendum #1).
A. Did Congress set aside a reservation for the Seminole Nation of
Oklahoma?
It is clear from the record before the Court that Congress established a reservation
for the Seminole Nation of Oklahoma. The following facts are uncontroverted, based on
the history provided by the Seminole Nation and Defendant/Appellant.
Originally hailing from what is now the State of Florida, the Seminoles began their
forced westward journey after the Treaty of Payne’s Landing. 7 Stat. 368 (1832)
(Defendant’s Exhibit #2). The Payne's Landing Treaty was part of President Andrew
Jackson's implementation of the Indian Removal Act, Pub. L. 21-148, 4 Stat. 411
(1830), which authorized the President to negotiate with the southeastern tribes for their
removal west of the Mississippi River. The treaty provided that the Seminoles would
“relinquish to the United States, all claims to the lands they at present occupy in the
Territory of Florida, and agree to emigrate to the country assigned to the Creek, west of
the Mississippi River." 7 Stat 368. Art. I.
One year after Payne’s Landing, the United States entered into the Treaty with
the Creeks, 7 Stat 417 (1833 Treaty) (Defendant's Exhibit #3). That treaty was
designed, in part, to “secure a country and permanent home to the whole Creek nation of
Indians, including the Seminole nation who are anxious to join them...." Id., Preamble.
To that end, the treaty stated that “it is also understood and agreed that the Seminole
Indians...shall also have a permanent and comfortable home on the lands hereby set

4

apart as the country of the Creek nation (emphasis added)." Id. Art IV. It provided further
that “they (the Seminoles) will hereafter be considered a constituent part of said nation,
but are to be located on some part of the Creek country by themselves - which location
will be selected for them by the commissioners who have signed these articles of
agreement of convention." Id. After examining the lands designated for them, the
Seminoles entered into a treaty with the federal government confirming the Creek Treaty
on March 28,1833. (Defendant’s Exhibit #4).
The arrangement created by the 1833 Treaty, whereby the Seminoles were to be
"considered a constituent part of the Creek Nation, brought about tension between the
two tribes. The Seminoles did not desire to be a “constituent” of the Creek Nation, as they
were their own sovereign government. They wished to have genuine political autonomy,
entirely separate from the Creeks. Continued dissensions resulted in the need for a new
treaty, which was entered into on August 7,1856.11 Stat. 699 (Defendant’s Exhibit #5).
The 1856 Treaty was intended to bring peace among the two tribes. Among its other
provisions, Article 1 defined specific boundaries for the Seminoles, described as:
[Beginning on the Canadian River, a few miies east of the ninetyseventh parallel of west longitude, where Ock-hi-appo, or Pond Creek,
enters into the same; thence, due north to the north fork of the
Canadian; thence up said north fork of the Canadian to the southern
line of the Cherokee country; thence, with that line, west, to the one
hundredth parallel of west longitude; thence, south along said parallel
of longitude to the Canadian River, and thence down and with that
river to the place of beginning.”
11 tat, 699, Art 1.
But the 1856 Treaty territory would not remain their homeland for long. Ten years
later, the United State and the Seminoles entered into yet another treaty. See Treaty with
the Seminoles, 14 Stat. 755 (1866) (Defendant’s Exhibit #6). By this time, the Civil War
5

had just ended. There was a tense relationship between the Seminoles and the federal
government, as most of the Seminoles had aligned with the Confederacy during the war.
Meanwhile, on top of the complications brought on by the Reconstruction, westward
expansion continued its relentless pace. Settlers demanded more land, and Congress
accommodated. Thus, while the 1866 Treaty was in part designed to make peace
between the Nation and the federal government, as more germane to this proceeding, it
also redefined the Nation's reservation territory - this time, with a much smaller land base.
See 14Stat. 755 (1866).
Under Article 3 of the 1866 Treaty, the Seminoles agreed to “cede and convey
to the United States their entire domain” that had previously been guaranteed to them
under the 1856 Treaty. Id. Art 3. In return, they were paid a fixed sum of $325,362.00, or
fifteen cents per acre.
Article 3 then established a new reservation for the Seminoles, made of lands
that the United States had just recently acquired from the Creeks. It was defined this
way:
The United States having obtained by grant of the Creek Nation the
westerly half of their lands, hereby grant to the Seminole Nation the
portion thereof hereafter described, which shall constitute the
national domain of the Seminole Indians, (emphasis added)
Beginning on the Canadian River where the line dividing the Creek
lands according to the terms of their sale to the United States by their
treaty of February 6,1866, following said line due north to where said
line crosses the north fork of the Canadian River; thence up said fork
of the Canadian River a distance sufficient to make two hundred
thousand acres by running due south to the Canadian River; thence
down said Canadian River to the place of beginning.

6

Of course, in granting the Seminoles a “national domain,” the 1866 Treaty does
not use the word "reservation." But the presence of that exact word has never been a
prerequisite to finding that Congress indeed created a reservation. See McGirt, 140 S.
Ct at 2461 (noting that in 1866 “that word had not yet acquired such distinctive
significance in federal Indian law”); e.g., Menominee Tribe of Indians v. United States,
391 U.S. 404 (1968) (reservation created when Congress provided for "a home, to be
held as Indian lands are held"). In any event, even if the particular word “reservation” was
not in the 1866 Treaty, Congress's intent to create a reservation for the Seminotes can
be seen in subsequent legislation. E.g.t Act of March 3,1891,26-Stat 989,1016 (1891)
(referencing the "western boundary line of the Seminole Reservation”); see also 11
Cong. Rec. 2351 (1881) (referring to the Creek and Seminole “reservations").
Accordingly, just as the 1866 Treaty with the Creeks established a reservation, so too did
the 1866 Treaty with the Seminoles.
As this definition indicates, to ascertain the exact metes and bounds of this new
reservation, it was necessary to first Identity “the line dividing the Creek lands according
to the terms of their sale to the United States." Unfortunately, it would prove difficult for
the United States to accurately locate that boundary.
The dividing line was originally drawn by a surveyor named Rankin in 1867, but
this survey was never approved by the Department of the Interior. Instead, in 1871,
another surveyor, Bardwell, placed the dividing line seven miles west of the Rankin line.
The Department adopted the Bardwell line, and the dimensions were measured based
on that starting point. In the meantime, however, it seemed that a number of Seminoles
had settled and “made substantial improvements” on lands to the east of the Bardwell
line, i.e., in what appeared to be Creek territory. See Seminole Nation v. United States,
316 U.S. 310, 313 (1942). Seeking an equitable solution, the United States decided to
purchase those lands for the Seminoles. Consequently, in a purchase negotiated in 1881,
7

the Creeks were paid $175,000 - a dollar per acre - and the extra land became part of
the Seminole Reservation. Id.; see also 22 Stat. 257,265 (1882).
It is this Reservation - first defined in the 1866 Treaty and then supplemented with
the 1881 land purchase from the Creeks - that constitutes the Seminole Nation of
Oklahoma Reservation.
B. Did Congress specifically erase the reservation boundaries and
disestablished the Seminole Nation Reservation?
McGirt affirmed a longstanding tenet of federal Indian law; once a reservation is
established, only Congress can disestablish that reservation, and to do so, it “must clearly
express its intent to do so, commonly with an explicit reference to cession or other
language evidencing the present and total surrender of all tribal interests.” 140 S. Ct at
2463. Here, because Congress has not explicitly indicated an intent to disestablish the
Seminole Reservation - by language of cession or otherwise - it remains intact.
(i) Allotment did not disestablish the Reservation.
Starting in the 1880s, Congress embraced a policy of allotting tribal lands, through
which it sought to "extinguish tribal sovereignty, erase reservation boundaries, and force
the assimilation of Indians into the society at large." County of Yakima v. Confederated
Tribes & Bands of the Yakima Indian Nationt 502 U.S. 251, 254 (1992). The policy of
allotment was eventually repudiated in 1934 with the passage of the Indian
Reorganization Act, 48 Stat. 984, but not before it had reached the Seminole Nation.
Still, although allotment did ultimately result in the much Seminole land passing into nonIndian hands, it did not disestablish the Reservation.

8

In 1893, Congress formally authorized allotment of the Five Tribes' reservations.
Act of March 3, 1893, 27 Stat. 612, at 645 (Defendant’s Exhibit #9). Negotiations were
delegated to the Dawes Commission, which reached an agreement with the Seminoles
on December 16, 1897, ratified by Congress on July 1, 1898, 30 Stat 567 (Defendant’s
Exhibit #10). The agreement created three classes of land, to be appraised at $5, $2.50,
and $1.25 per acre, respectively. Id. Each tribal member would be allotted a share of land
of equal value, for which they would have the sole right of occupancy. Id. Allotments were
inalienable until the date of patent, though leases were allowed under some conditions.
Id.
Importantly, nothing in either the statute authorizing allotment or the resulting
agreement contained any of the hallmarks of disestablishment. There was no language
of cession, no mention of a fixed sum in return for the total surrender of tribal claims, or
any other textual evidence of intent to disestablish the Seminole Reservation. To be sure
the congressional policy of allotment Itself might have been Intended to “create the
conditions for disestablishment," but as McGIrt explains, "to equate allotment with
disestablishment would confuse the first step of a march with arrival at its destination.”
140 S. Ct. at 2465; see also Mattz v. Arnett, 412 U.S. 481, 497 (1973) (explaining that
allotment “is completely consistent with continued reservation status."). Accordingly, the
Seminole Reservation maintained its existence during and after the allotment process.
(ii) Restrictions on tribal sovereignty did not disestablish the
Reservation.
The Seminole Nation acknowledges that Congress has taken measures in the past
that have restricted the Nation’s sovereignty - indeed, even contemplated the

9
i
i

extinguishment of the Nation’s government altogether- but none of those actions evinced
any explicit intent to disestablish the Reservation.
Of course, there were numerous actions on Congress’s part that put dents in the
Nation's rights to self-governance. Most threatening of all of Congress's campaigns
against Seminole sovereignty was the Act of March 3,1903, which explicitly contemplated
that “the tribal government of the Seminole Nation shall not continue longer than [March
4,1906]." 34Stat 982,1008(1903) (Defendant's Exhibit #12). But when that date came
about, Congress took a different path, enacting what would be known as the Five Tribes
Act. Instead of terminating the Seminole Nation’s government, the Act expressly
recognized “[t]hat the tribal existence and present tribal government" of the Seminole
Nation “continued in full force and effect for all purposes authorized by law.” Five Tribes
Act, 34 Stat 137,148 (1906) (Defendant’s Exhibit #13). Granted, the Five Tribes Act
did restrict various tribal governmental powers (e.g., by prohibiting the tribal council from
meeting more than thirty days per year) but It stopped far short of terminating the Nation
altogether- and it certainly did not provide any language expressly indicating an intent to
disestablish the Reservation.
In short, it is beyond dispute that Congress has not always lived up to its trust
responsibilities to the Nation, and that discrete aspects of the Nation’s sovereignty have
been targeted from time to time. But that is not enough to take away the Nation's very
home. As Justice Gorsuch put it: “[l]t's no matter how many other promises to a tribe
the federal government has already broken. If Congress wishes to break the
promise of a reservation, it must say so." id. at 2462. Here, as evident from every
relevant Act of Congress referencing the Seminole Nation, Congress has not done so.

10

(iii) Oklahoma’s statehood did not disestablish the Reservation.
Shortly after Congress expressly preserved the Seminole Nation’s government, it
passed the Oklahoma Enabling Act, 34 Stat. 267 <1906), paving the way for Oklahoma
statehood. But like every other congressional statute that might potentially be cited by the
State, nothing in the Oklahoma Enabling Act contained any language suggesting that
Congress intended to terminate the Seminole Reservation.
in fact, if anything, the Oklahoma Enabling Act shows that Congress intended that
Oklahoma statehood shall not interfere with existing treaty obligations (i.e., reservations).
The Act explicitly prohibited Oklahoma's forthcoming constitution from containing
anything that could be construed as limiting the federal government's role in Indian affairs,
e.g., its authority “to make any law or regulation respecting such Indians." 34 Stal at 267.
Ultimately, because no Act of Congress bears any of the textual evidence of intent
to disestablish the Seminole Reservation, it simply does not matter that Oklahoma has
undergone changes since 1866. Nor does it matter that State officials might have
presumed for the last hundred or so years that the Seminole Reservation no longer exists.
Foliowing the analysis in McGirt v. Oklahoma, 140 S. Ct. 2452 (2020), as it
applies to the Seminole Nation's own legal and historical background, makes it clear that
Congress never specifically erased the boundaries and/or otherwise disestablished the
Seminole Reservation. Therefore, the reservation established by Congress for the
Seminole Nation of Oklahoma exists to this day.
C.

What are the boundaries of the Seminole Nation Reservation?

This court has previously determined the boundaries to be as follows:
11

i

[

Specifically, the Reservation boundaries mainly track the borders of Seminole
County, with a slight deviation. County lines were defined in the Oklahoma Constitution,
with Seminole County described as follows;
Beginning at a point where the east boundary line of the Seminole
nation intersect the center line of the South Canadian River; thence
north along the east boundary line of said Seminole nation to its
intersection with the township line between townships seven and
eight North; thence east along said township line to the southwest
corner of section thirty-five, township eight North, range eight East;
tbfence north along tho section tine between sections thirty-four and
thirty-five, in said township and range, projected to its intersection
with the center tine of the North Canadian River; thence westward
along the center line of said river to its intersection with the east
boundary line of Pottawatomie County; thence southward along said
east boundary line to its intersection with the center line of the South
Canadian River; thence down along the center line of said river to the
point of beginning. Wewoka is hereby designated the County Seat of
Seminole County.
Okla. Const., Art. 17, § 8.
As the constitutional description shows, the boundaries of Seminole County are
defined largely by reference to the Seminole Reservation boundaries. The deviation lies
in the northeastern region. County lines depart from the Reservation border beginning at
the point where the Reservation’s eastern boundary intersects with the line between
townships seven and eight north (just southwest of the intersection of East/West Rd. 131
and State Highway 56). From that point, the County line runs due east for slightly less
than three miles (until reaching the southwest comer of section 35 of Township 8 North,
Range 8 East). Then the County line runs due north until the midpoint of the North
Canadian River, at which point the County line runs along the river back toward the
Seminole Nation. The map attached to the Seminole Nation Brief as Exhibit A displays
both the County lines and the Reservation boundaries.

12

!

The State of Oklahoma and Defendant/Petitioner stipulated that the location of the
commteatori of the crime at "leeue

the historical boundaries of the Seminole Nation

of Oklahoma.
Conclusion
In accordance with the stipulation of the parties, testimony, exhibits and statements
of counsel, this Court finds that;
i

1. The Defendant/Petitioner is an “Indian" as defined by the Court of Criminal
Appeals of Oklahoma. Defendant/Petitioner was not an "Indian” as defined by
the Court of Criminal Appeals of Oklahoma in 1977 when the crime was
committed.
2. By applying the analysis set out in McGirt, Congress established a reservation
for the Seminole Nation of Oklahoma.
3. By applying the analysis set out in McGirt, Congress has not specifically
erased the reservation boundaries and disestablished the Seminole Nation
Reservation.
4. The Seminole Nation of Oklahoma is "Indian Country" for purposes of criminal
law jurisdiction.
5. The Crime that Defendant/Petitioner was convicted of occurred in Indian
Country.
Dated this % t day of February, 2021.

si

HONORAB
HY L. OLSEN
JUDGE OF THE DISTRICT COURT

13

CERTIFICATE OF MAILING
The undersigned hereby certifies that on the j^day of
_____ , 202_L a copy of this Order has been delivered by mall/ln person/oF E-Mail to the
following parlies and or attorneys of record:

Paul B. Smith
District Attorney
Seminole County Courthouse
P.O. Box 1300
Wewoka, Oklahoma 74884
e-mail: Paui.Smith@dac,state.ok.u$
Wyatt Rosette, Rosette Law Firm
Attorney General
4111 Perimeter Center PI
Oklahoma City, OK 73112
e-mail: wrosette@rosettelaw.com
Court of Criminal Appeals
Oklahoma Judicial Center
2100 N. Lincoln Blvd., Suite 4
Oklahoma City, Oklahoma 73105

Brad Carter
Attorney at Law
(via e-mail)
i

Chief Greg P. Chilcoat
The Seminole Nation of Oklahoma
P.O. Box 1498
Wewoka, Oklahoma 74884
e-mail: chief@sno-nsn.Qov
e-mail: Lincoln,s@sno-nsn.Qov
Oklahoma Indigent Defense System
P.O. Box 926
Norman, Oklahoma 73070-0926

Court Clerk/Deputy Court Clerk/Secretary-Bailiff

14

https://nextcorrectional.westlaw.com/Document/I09bcb224c 1 c911 eaa...

Johnson v. Oklahoma | WestlawNext

WESTLAW
Johnson v. Oklahoma
Supreme Court of the United States.

July 9, 2020

141 S.Ct. 192 (Mem)

207 L.Ed.2d 1117 (Approx. 1 page)

141 S.Ct. 192
Supreme Court of the United States.

Joe JOHNSON, Jr., Petitioner,
v.

OKLAHOMA.
No. 18-6098.
July 9, 2020
Opinion
On petition for writ of certiorari to the Court of Criminal Appeals of Oklahoma. Motion of
petitioner for leave to proceed in forma pauperis and petition for writ of certiorari granted.
Judgment vacated, and case remanded to the Court of Criminal Appeals of Oklahoma for
140 S.Ct. 2452, 207
further consideration in light of McGirt v. Oklahoma, 591 U.S.
L.Ed.2d 985 (2020).
All Citations
141 S.Ct. 192 (Mem), 207 L.Ed.2d 1117

End of

©2021 Thomson Reuters. No claim to original U.S. Government Works.

Document

WestlawNext © 2021 Thomson Reuters

/^ppENOtX C/
I of 1

u

6/30/2021 1:27 AM

State ex rel. Matloffv. Wallace j WestlawNext

https://nextcorrectional.westlaw.com/Document/Ib5193cb0bcb311eb9...

WESTLAW
State ex ret. Matloffv. Wallace
Court of Criminal Appeals of Oklahoma. May 21. 2021 . — P.3d—- ' 2021 WL 2069659 (Mem)

2021 OK CR 15 (Approx. 2 pages

2021 WL 2069659
Court of Criminal Appeals of Oklahoma.

STATE EX REL. Mark MATLOFF, District Attorney, Petitioner
v.
The Honorable Jana WALLACE District Judge, Respondent.
Decided: 05/21/2021

ORDER GRANTING STAY OF PROCEEDINGS AND DIRECTING SUPPLEMENTAL
BRIEFS
*1
The State of Oklahoma, by Mark Matloff, District Attorney of Pushmataha County,
petitions this Court for the writ of prohibition against enforcement of Judge Jana Wallace’s
April 13, 2021 order granting post-conviction relief, vacating and dismissing the second
degree murder conviction of Clifton Merrill Parish in Pushmataha County Case No.
CF-2010-26.
H2 Parish was tried by jury and found guilty of second degree felony murder in March,
2012. The jury sentenced him to twenty-five years imprisonment. This Court affirmed the
conviction on direct appeal in Parish v. State, No. F-2012-335 (Okl.Cr., March 6,
2014)(unpublished). Parish did not petition for rehearing, and apparently did not petition the
United States Supreme Court for a writ of certiorari within the allowed ninety-day time
period. On or about June 4, 2014, Parish's conviction became final. 1
H3 In August, 2020, Parish sought post-conviction relief, alleging that the State of
Oklahoma lacked subject matter jurisdiction to try him for murder under the Supreme
Court's decision in McGirt v. Oklahoma
U.S.
140 S.Ct. 2452, 207 L.Ed.2d 985
(2020). Judge Wallace held a hearing and found that Parish was an Indian and committed
his crime within the Choctaw Reservation, the continued existence of which was recently
recognized by this Court, applying McGirt, in Sizemore v. State, 2021 OK CR 6, fj 16
P.3d
fl4 Because the Choctaw Reservation is Indian Country, Judge Wallace found that the
State lacked subject matter jurisdiction to try Parish for murder under the Major Crimes Act,
18 U.S.C. § 1153. Applying the familiar rule that defects in subject matter jurisdiction can
never be waived, and can be raised at any time, Judge Wallace held that Parish's
conviction for second degree murder was void and ordered the charge dismissed.
H5 Judge Wallace initially stayed enforcement of the order until April 21,2021, then
effectively extended the stay by setting the matter for status conference on June 10, 2021.

Appe^lO^xt:'0,,
l of 3

6/27/2021 2:06 AM

i

i

State exrel. Matloff v. Wallace f WestlawNext

https://nextcorrectional.westlaw.com/Document/Ib5193cb0bcb311 eb9...
i

Petitioner Matloff filed in this Court a verified request for a stay of all trial court
proceedings, which is hereby GRANTED. Pursuant to Rules 10.1(C)(2), (3), and (4), and
10.5(5), Rules of the Oklahoma Courtof Criminal Appeals, Title 22, Ch. 18, App. (2021),
Petitioner Matloff is hereby directed to file with the Clerk of this Court a certified copy of
the original record containing the documents previously designated, with an original or
certified copy of the transcript of proceedings, if any.
*2116 Petitioner Mark Matloff and Attorney Debra K. Hampton, post-conviction counsel for
party-in-interest Clifton Parish, are hereby directed within twenty days of this order to
submit briefs of not more than twenty pages, addressing the following question:

In light of Ferrell v. State, 1995 OK CR 54, 902 R2d 1113, United States v.
Cuch, 79 F.3d 987 (10th Cir. 1996), Edwards v. Vannoy(No. 19-5807),
593 U.S.
(May 17, 2021), cases cited therein, and related authorities,
should the recent judicial recognition of federal criminal jurisdiction in the
Creek and Choctaw Reservations announced in McGirt and Sizemore be
applied retroactively to void a state conviction that was final when McGirt
and Sizemore were announced?

H7 Representatives of the Attorney General of Oklahoma and the Choctaw Nation are also
invited to enter appearances and file briefs according to these guidelines. The Clerk is
directed to immediately forward copies of this order to the following parties and counsel:
The Honorable Jana Wallace Associate District Debra K. Hampton Attorney at Law 3126
Judge 302 S.W. B Antlers, OK 74523
S. Blvd. #304 Edmond, OK 73103
Clifton Parish #473315 Mack Alford CC P.O.
Box 220 Stringtown, OK 74569

Mike Hunter Attorney General 313 N.E.
21st St. Oklahoma City, OK 73105

Mark Matloff District Attorney 204 S.W. 4th St. Jacob Keyes Choctaw Nation P.O. Box
#6 Antlers, Oklahoma 74523
1210 Durant, OK 74702
1J8 IT IS SO ORDERED.
/s/ DANA KUEHN, Presiding Judge
/s/ SCOTT ROWLAND, Vice Presiding Judge
/s/ GARY L. LUMPKIN, Judge
Isl DAVID B. LEWIS, Judge
Isl ROBERT L. HUDSON, Judge
All Citations
— P.3d

2 of 3

2021 WL 2069659 (Mem), 2021 OK CR 15

6/27/2021 2:06 AM

I
i

State ex rel. Matloff v. Wallace | WestlawNext

https://nextcorrectional.westlaw.com/Document/Ib5193cb0bcb311eb9...

*■

Footnotes
1

Walker v. State, 1997 OK CR 3, H 3 n.7, 933 P.2d 327, 330 n.7 (citing
Teague v. Lane, 489 US. 288, 295, 109 S.Ct. 1060, 103 L.Ed.2d 334
(1989))(defining a final conviction as one where judgment was rendered, the
availability of appeal exhausted, and the time to petition for certiorari had
elapsed).

End of

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Document

WestlawNext © 2021 Thomson Reuters

;

3 of 3

6/27/2021 2:06 AM

Additional material
from this filing is

i
5

<

available in the
I

Clerk's Office.

